No.

IN THE
SUPREME COURT OF THE UNITED STATES
-October Term, 2020 -

JOHN JOSEPH BARRERA,
Petitioner,
V.

JESSICA NEWSOME, et. al.,
Respondents.
PROOF OF SERVICE

I, John Joseph Barrera, declare under the penalty of perjury, that no proof of service
is required in this case because Defendants (Respondents) were never served with a copy of the
Complaint, nor did any attorney file an appearance on their behalf. Therefore, no proof of service
is required in this case, unless otherwise ordered by this Court.
FURTHER, Petitioner Barrera says not.
Dated: this 20th day of November. 2020
iri&sepnBarrera

o/A

No.
IN THE
SUPREME COURT OF THE UNITED STATES
-October Term, 2020-

JOHN JOSEPH BARRERA,
Petitioner,
V.

JESSICA NEWSOME, at. a!.,
Respondents.

DECLARATION OF COMPLIANCE UNDER 28 USC § 1746
I. John Joseph Barrera, hereby declare under the penalty of perjury, that on November
23, 2020, I placed my Petition for Writ of Certiorari to the US Court of Appeals for the Sixth
Circuit, together with the Appendix and my IFP Motion, in the hands of Prison officials at the
Lakeland Correctional Facility, in Coldwater, Michigan 49036, I Further state:
1. That the pleadings were mailed out by way of the Expedited Legal Mail process, and
was signed and dated by the Resident Unit Manager on February 09,2016, to be placed in the US
Mail with postage fully prepaid for delivery by the United States Postal Services.
2. In accordance with the Supreme Court Rule, I submitted these pleadings for
delivery prior to the due date of December 14, 2020, to prison officials under Rule 29.2.
Therefore, I complied with this rule for submission of my pleadings. Under the penalty of perjury, I
hereby declare that the above statement is true to the best of my belief, knowledge and
understanding of the facts as I know them. FURTHER, I say not. “
/s.

Joseph Barrera
Subscribed and sworn to before me,
this
davof KJQnA5 rvOoer, 2020
NOTARY PUBLIC

V

/

S.COPE

Notary pubuc, state of mi

MY COMMISSION EXPIRES:
Acting in \>htTA xrJrxCounty Michigan

COUNTY OF HILLSDAtE
MY COMMISSION EXPIRESOct 18,2026
ACTING IN COUNTY OF
CUTtA\

13.'

^ ... J,

